2311 Douglas Street CC Le g KLE E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1394

PERSONALWEB TECHNOLOGIES, LLC,
Petitioner,
v.
PATREON, INC., et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICUS
CURIAE CFL TECHNOLOGIES LLC IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4147 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of May, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ho Mme | HOTARY State of Nebraska wv CLL
ee toss. RENEE J. GOSS

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

40967
